      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




November 2, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Medicaid Administrative Costs Claimed by New Jersey for State Fiscal
               Year 2007 (A-02-07-01050)


Attached, for your information, is an advance copy of our final report on Medicaid
administrative costs claimed by New Jersey for State fiscal year 2007. We will issue this report
to the New Jersey Department of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-07-01050.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
November 4, 2011

Report Number: A-02-07-01050

Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Administrative Costs Claimed by New
Jersey for State Fiscal Year 2007. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John J. Madigan, Audit Manager, at (518) 437-9390, extension 224, or through email at
John.Madigan@oig.hhs.gov. Please refer to report number A-02-07-01050 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




      REVIEW OF MEDICAID
     ADMINISTRATIVE COSTS
  CLAIMED BY NEW JERSEY FOR
    STATE FISCAL YEAR 2007




                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-02-07-01050
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New Jersey, the Department of Human Services (State agency) administers the Medicaid
program. The State agency contracts with 56 community-based mental health providers to
provide Medicaid-related mental health and related services. Section 1903(a)(7) of the Act
permits States to claim Federal reimbursement for 50 percent of the costs of administrative
activities that are necessary for the proper and efficient administration of the State Medicaid plan
(Medicaid administration). States submit expenditures for Medicaid administration activities for
reimbursement on Form CMS-64, the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (Form CMS-64). New Jersey computes the cost of Medicaid
administration activities performed by staff of contracted mental health providers using a process
that results in New Jersey’s Medicaid Administrative Claim (MAC). To compute the MAC for
State fiscal year (FY) 2007, the State agency entered into a contingency fee contract with
Maximus, Inc. (Maximus), which developed a four-step methodology that included a random
moment timestudy (RMTS) to identify the Medicaid administration activities of staff in
contracted mental health providers.

For State FY 2007, the State agency claimed Federal Medicaid reimbursement totaling
$25,957,141 ($12,978,570 Federal share) for the cost of Medicaid administration activities
performed by staff of contracted community mental health services on the Form CMS-64.

OBJECTIVE

Our objective was to determine whether the State agency’s MAC for FY 2007 complied with
Federal requirements for claiming costs associated with administration of the State Medicaid
plan.

SUMMARY OF FINDINGS

The State agency’s MAC did not comply with Federal requirements. Specifically, Maximus
included unallowable costs in the cost pool used to compute the MAC, resulting in a claim for
$10,047,252 ($5,023,626 Federal share) in excess Medicaid administrative costs. In addition,
Maximus (1) performed an RMTS that deviated from acceptable statistical sampling practices
and (2) applied Medicaid eligibility rates that were not documented by the State agency. We
were unable to quantify the effect of these errors; however, they impacted the accuracy of the
Medicaid administrative costs claimed by the State agency and the validity of the RMTS used to

                                                 i
allocate these costs. Therefore, we were unable to express an opinion on the allowability of the
remaining $15,909,889 ($7,954,944 Federal share) claimed on the State agency’s MAC.
These errors occurred because the State agency did not establish adequate policies and
procedures to ensure that calculation of its MAC complied with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $5,023,626 to the Federal Government,

   •   work with CMS to determine what portion of the remaining $7,954,944 in Medicaid
       administration costs claimed for FY 2007 was allowable under Federal requirements,

   •   establish policies and procedures to ensure that future RMTS results used to allocate
       costs to Medicaid follow acceptable statistical sampling practices, and

   •   maintain supporting documentation for Medicaid eligibility rates used in computing the
       MAC.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not agree with our findings and
recommendations related to its inclusion of unallowable administrative costs in its Medicaid
administrative cost pool and that its RMTS deviated from acceptable statistical sampling
practices. The State agency agreed with our recommendation to maintain supporting
documentation for Medicaid eligibility rates and described steps that it has taken to address our
finding.

After reviewing the State agency comments, we maintain that our findings and recommendations
are valid. The State agency’s comments appear in their entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Medicaid Program ...........................................................................................1
              Medicaid Administration Costs ......................................................................1
              New Jersey’s Community Mental Health Services
               Medicaid Administrative Claim ...................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
               Objective .........................................................................................................2
               Scope ...............................................................................................................2
          `    Methodology ...................................................................................................3

FINDINGS AND RECOMMENDATIONS .......................................................................3

          UNALLOWABLE ADMINISTRATIVE COSTS INCLUDED IN MEDICAID
           ADMINISTRATION COST POOL ........................................................................4
              Federal Requirements .....................................................................................4
              Unallowable Overhead Costs ..........................................................................4
              Unallowable Salaries and Wages ....................................................................5

          RANDOM MOMENT TIMESTUDY DEVIATED FROM ACCEPTABLE
          STATISTICAL SAMPLING PRACTICES ...............................................................5
               Federal Requirements .....................................................................................5
               Random Moment Timestudy Observations Improperly Coded ......................5
               Random Moment Timestudy Did Not Cover Period to Which It
                 Was Applied.................................................................................................6
               Random Moment Timestudy Did Not Reduce the Potential for Bias ............6

          MEDICAID ELIGIBILITY RATES NOT DOCUMENTED ....................................6

          RECOMMENDATIONS ............................................................................................7

          STATE AGENCY COMMENTS AND
          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................7
               Unallowable Administrative Costs Included in
                 Medicaid Administrative Cost Pool .............................................................7
               Random Moment Timestudy Deviated From Acceptable
                 Statistical Sampling Practices ......................................................................9
               Medicaid Eligibility Rates Not Documented ................................................10




                                                                    iii
APPENDIXES

    A: COMMUNITY-BASED MENTAL HEALTH PROVIDERS THAT DID NOT
       PROVIDE SERVICES COVERED BY MEDICAID

    B: STATE AGENCY COMMENTS




                               iv
                                                 INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1903(a)(7) of the Act permits States to claim Federal reimbursement for 50 percent of
the costs of administrative activities that are necessary for the proper and efficient administration
of the State Medicaid plan (Medicaid administration). States submit expenditures for Medicaid
administration for reimbursement on Form CMS-64, the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (Form CMS-64).

Medicaid Administration Costs

To determine the portion of time and activities related to the administration of the Medicaid State
plan, States must develop an allocation methodology that is approved by the U.S. Department of
Health and Human Services (HHS), Division of Cost Allocation. Federal regulations require that
cost allocation plans conform to the accounting principles and standards in Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments (2 CFR pt. 225), and other pertinent regulations and instructions (45 CFR
§ 95.507 (a)(2)).

According to the OMB Circular A-87, random moment sampling is an acceptable method for
allocating salaries and wages to Federal awards. Random moment sampling, which uses a
random moment timestudy (RMTS), must reflect all of the time and activities (whether allocable
or allowable under Medicaid) performed by participating employees. Pursuant to OMB Circular
A-87, Attachment A, C.3a and C.2a, program costs must be reasonable and necessary and
allocated in accordance with the benefits received by the program.

New Jersey’s Community Mental Health Services Medicaid Administrative Claim

In New Jersey, the Department of Human Services (State agency) administers the Medicaid
program. The State agency contracts with 56 community-based mental health providers to
provide Medicaid-related mental health and related services. 1 Mental health center staff also
perform certain activities in support of the State’s administration of the Medicaid State plan.

1
  The mental health providers are managed by nonprofit organizations and county governments. The mental health
providers’ services include psychiatric treatment, community residences (e.g., group homes), case management, and
job placement.

                                                        1
For State fiscal year (FY) 2007, the State agency claimed Federal Medicaid reimbursement on
the Form CMS-64 totaling $25,957,141 ($12,978,570 Federal share) for Medicaid administration
activities performed by mental health providers. The costs were computed using a process that
resulted in the State’s Medicaid Administrative Claim (MAC). To compute the MAC for State
FY 2007, the State agency entered into a contingency fee contract with Maximus, Inc.
(Maximus), which developed a four-step methodology to identify the cost of Medicaid
administration activities performed by staff of contracted mental health providers: 2

    1. Maximus first calculated the MAC cost pool, which included the salaries and other
       operating costs contained in annual operating budgets for the mental health providers.

    2. To determine the percentage of time and related costs spent by mental health center staff
       on Medicaid administration, Maximus performed an RMTS of the activities of the
       employees of sampled mental health providers. 3

    3. To determine the Medicaid-related percentage of the employees’ administration efforts,
       Maximus applied the applicable Medicaid eligibility rates —the mental health providers’
       number of Medicaid patients divided by total patients.

    4. Finally, Maximus applied the estimated percentage of the employees’ efforts applicable
       to Medicaid administration to the MAC cost pool.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s MAC for FY 2007 complied with
Federal requirements for claiming costs associated with administration of the State Medicaid
plan.

Scope

We reviewed the $25,957,141 ($12,978,570 Federal share) that the State agency claimed on its
Forms CMS-64 for FY 2007 related to administrative costs applicable to the mental health
providers.

Our objective did not require an understanding or assessment of the State agency’s internal
control structure. We limited our review to internal controls related to the State agency’s and
Maximus’ calculation of the MAC.



2
 The contingency fee contract was valued at 4.75 percent of new Federal funds generated by Maximus’ efforts. The
State agency did not claim the contingency fee for Federal reimbursement.
3
  On the selected date and time, Maximus contacted a sample of employees and recorded an activity code for each
reported activity. Maximus calculated the percentage of responses related to various activities.

                                                        2
We performed our fieldwork at the State agency’s offices in Trenton, New Jersey, and at 38 of
the 56 mental health providers throughout New Jersey whose costs were used to calculate the
MAC.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed the State agency’s contingency fee contract with Maximus;

    •   held discussions with the State agency, Maximus, HHS Division of Cost Allocation, and
        CMS officials to gain an understanding of the process for calculating the MAC;

    •   reconciled the quarterly administrative costs claims developed by Maximus to the costs
        submitted by the State agency on the Forms CMS-64;

    •   reviewed the budgeted costs included in the administrative cost pool for the 56 mental
        health providers;

    •   selected a simple random sample of 100 of the total 1,312 RMTS observations, taken
        between April 1, 2005, and March 31, 2006, that Maximus used to allocate employee
        time and costs to the Medicaid program;

    •   for each of the sampled observations, visited the corresponding mental health center to
        determine if the associated employee(s)’ effort(s) were properly identified and reviewed
        documentation supporting the center’s Medicaid eligibility rates; 4and

    •   reviewed documentation to support the statewide Medicaid eligibility rates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency’s MAC did not comply with Federal requirements for claiming costs associated
with administration of the State Medicaid plan. Specifically, Maximus included unallowable
salaries and operating costs in the cost pool used to compute the MAC, resulting in a claim for

4
 The 100 RMTS observations in our statistical sample were associated with individuals employed at the 38 facilities
we visited.


                                                        3
$10,047,252 ($5,023,626 Federal share) in excess Medicaid administration costs. In addition,
Maximus (1) performed an RMTS that deviated from acceptable statistical sampling practices
and (2) applied Medicaid eligibility rates that were not documented by the State agency. We
were unable to quantify the effect of these errors; however, they impacted the accuracy of the
Medicaid administration costs claimed by the State agency and the validity of the RMTS used to
allocate these costs. Therefore, we were unable to express an opinion on the allowability of the
remaining $15,909,889 ($7,954,944 Federal share) claimed on the State agency’s MAC. These
errors occurred because the State agency did not establish adequate policies and procedures to
ensure that its MAC complied with Federal requirements.

UNALLOWABLE ADMINISTRATIVE COSTS INCLUDED IN MEDICAID
ADMINISTRATION COST POOL

Federal Requirements

OMB Circular A-87, Attachment A § (C)(3)(a) (2 CFR 225 Appendix A. § C.3.a), states that “[a]
cost is allocable to a particular cost objective if the goods or services involved are chargeable or
assignable to such cost objective in accordance with relative benefits received.” Under OMB
Circular A-87, costs are allocable to particular cost objectives, such as public assistance
programs, only up to the amount of the relative benefits received by such objectives and only
allocable costs are allowable. To be allowable under a Federal award, costs must be necessary
and reasonable for the proper and efficient performance and administration of the award.
Further, costs must be allocable and chargeable in accordance with the relative benefits received.

On December 20, 1994, CMS issued a State Medicaid Director Letter reiterating its
“long-standing policy” on Federal financial participation for costs “found necessary by the
Secretary for the proper and efficient administration of the State [Medicaid] plan.” The letter
stated that allowable administrative costs must be “directly related to the administration of the
Medicaid program” and “may not include the overhead costs of operating a provider facility.”

The letter also stated that allowable administrative costs do not include gaining access to or
coordinating non-Medicaid services even if such services are health-related. Also, allowable
administrative costs do not include gaining access to or coordinating social, educational,
vocational, legal or other non-Medicaid services. Allowable administrative costs may not
include the operating costs of an agency whose purpose is other than the administration of the
Medicaid program.

Unallowable Overhead Costs

Maximus improperly included overhead costs of the mental health providers in the MAC cost
pool. The costs consisted of operating costs (e.g., indirect salaries and wages, 5 rent, utilities, and
depreciation) that were not directly related to the administration of the Medicaid program and

5
 The unallowable salaries and wages were related to the mental health providers’ general and administrative
employees who were not included in the RMTS roster. Maximus also included unallowable salaries and wages for
general and administrative staff who did participate in the RMTS, but we were unable to determine the monetary
effect of this.

                                                       4
were operating costs of an agency whose purpose is other than administration of the Medicaid
program. As a result, the State agency claimed excess Medicaid administration costs totaling
$7,116,272 ($3,558,136 Federal share).

Unallowable Salaries and Wages

Maximus improperly included unallowable salaries and wages in the MAC cost pool related to
employees at 17 mental health providers that did not provide services that directly benefited the
Medicaid program. CMS’s 1994 State Medicaid Director Letter states that an allowable
Medicaid administration cost must be “directly related to Medicaid State Plan or waiver
services.” Specifically, the mental health providers provided mental health-related social,
family, legal, and housing services that were not covered by Medicaid. As a result, the State
agency claimed excess Medicaid administration costs totaling $2,930,980 ($1,465,490 Federal
share). 6

Appendix A details the non-Medicaid services provided at the 17 mental health providers.

RANDOM MOMENT TIMESTUDY DEVIATED FROM
ACCEPTABLE STATISTICAL SAMPLING PRACTICES

Federal Requirements

OMB Circular A-87, Attachment B, § (8)(h)(6) (2 CFR 225 Appendix B. § 8.h.6), states that
random moment sampling may be used to allocate salaries and wages to a Federal award.
Further, “… systems which use sampling methods … must meet acceptable statistical sampling
standards including: (i) The sampling universe must include all of the employees whose salaries
and wages are to be allocated based on sample results …; (ii) The entire time period involved
must be covered by the sample; and (iii) The results must be statistically valid and applied to the
period being sampled.”

HHS’s A Guide for State, Local, and Indian Tribal Governments: Cost Principles and
Procedures for Developing Cost Allocation Plans and Indirect Cost Rates for Agreements With
the Federal Government (Reference No. ASMB C-10, pt. 3.4, § 3-23) states that the results of an
acceptable statistical sampling method covering one period of time cannot be applied to a
different period.

Random Moment Timestudy Observations Improperly Coded

Because some observations were improperly coded, the RMTS results were not statistically
valid. Of the 100 RMTS observations performed by Maximus that we sampled, 10 were
improperly coded. Specifically, the activity code that Maximus recorded for the sample
observations did not match the activity that the health center employee was performing during
the observation. For example, one employee who was terminated as of September 10, 2005, was
reported as being on vacation on September 13, 2005—the date of the observation. Another

6
  Maximus also improperly included unallowable salaries and wages in the MAC cost pool related to employees at
the remaining 39 mental health providers. However, we were unable to determine the monetary effect of this action.

                                                        5
employee was reported as being “on duty” on February 27, 2006; however, the employee’s
timesheet and payroll register indicated that the employee did not work that day.

Random Moment Timestudy Did Not Cover Period to Which It Was Applied

The State agency applied the results of the RMTS to a period that was not covered by the
timestudy. Maximus performed the RMTS for the period April 1, 2005, through March 31,
2006, but the State agency applied the RMTS results to administrative costs for the period July 1,
2006, through June 30, 2007.

Random Moment Timestudy Did Not Reduce the Potential for Bias

The RMTS deviated from acceptable statistical sampling practice because it did not reduce the
potential for bias by ensuring that (1) only eligible mental health center employees were selected
for participation, (2) study participants did not have access to potentially biasing information,
and (3) selected employees were not notified in advance. Specifically, Maximus’ RMTS
methodology contained the following deviations from acceptable statistical sampling practices:

   •   The mental health providers included ineligible employees (e.g., secretaries and
       accountants) on employee work schedules that they provided to the State agency and
       were subsequently forwarded to Maximus. Of the 100 RMTS observations performed by
       Maximus that we sampled, 18 were for individuals whose work was not directly related
       to the Medicaid program. Inclusion of these employees created a bias that contributed to
       a higher general administration response rate than if the administrative positions were not
       included.

   •   Instructional materials that the State agency provided to the mental health providers
       contained a potentially biasing statement that compliance with the RMTS would help
       generate additional funds for New Jersey and the mental health providers.

   •   Before Maximus conducted the RMTS, the State agency gave the mental health providers
       the names and contact times of employees who would be surveyed, thus potentially
       influencing the employees’ assigned duties at the time they were polled.

MEDICAID ELIGIBILITY RATES NOT DOCUMENTED

Pursuant to OMB Circular A-87, Attachment A, (C)(1)(j) (2 CFR 225 Appendix A § C.1.j)
allowable costs must be adequately documented.

The State agency did not maintain documents to support the eligibility rates used to determine
the percentage of certain employee efforts applicable to the Medicaid program. In computing the
MAC, the State agency gave each health center the option to develop its own Medicaid eligibility
rate—the center’s number of Medicaid patients divided by total patients—or to use a statewide
rate. Mental health providers used both options during our audit period; however, the mental
health providers and the State agency did not maintain documentation to support the Medicaid
eligibility rates that were reported by the providers and used to compute the MAC.

                                                6
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $5,023,626 to the Federal Government,

   •   work with CMS to determine what portion of the remaining $7,954,944 in Medicaid
       administration costs claimed for FY 2007 was allowable under Federal requirements,

   •   establish policies and procedures to ensure that future RMTS results used to allocate
       costs to Medicaid follow acceptable statistical sampling practices, and

   •   maintain supporting documentation for Medicaid eligibility rates used in computing the
       MAC.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not concur with our findings and
recommendations related to its inclusion of unallowable administrative costs in its Medicaid
administrative cost pool and that its RMTS deviated from acceptable statistical sampling
practices. The State agency agreed with our recommendation to maintain supporting
documentation for Medicaid eligibility rates and described steps that it has taken to address our
finding. State agency’s comments appear in their entirety as Appendix B.

Unallowable Administrative Costs Included in Medicaid Administrative Cost Pool

Applicability of Federal Criteria

State Agency Comments

The State agency stated that the OMB Circular A-87 requirement that costs must be “necessary
and reasonable” applies to its development of its MAC. However, the State agency argued that
“A-87 is only applicable to these provider costs in that the costs paid by the State for the
administrative functions performed by the provider agencies must be reasonable, since they are
contracted provider payments—not costs of the state agency staff directly performing these
activities.”

Office of Inspector General Response

The Federal cost principles set forth in OMB Circular A-87 are all applicable to costs incurred by
the State under its Federal award. To be allowable to Medicaid under OMB Circular A-87, costs
must be both necessary and reasonable and also allocable to Medicaid in accordance with the
benefits received by Medicaid. The State may not develop a Medicaid payment rate based on
costs that are not allowable to Medicaid. CMS’s policy guidance on Medicaid administrative
claiming is consistent with OMB Circular A-87. The December 20, 1994, State Medicaid

                                                 7
Director Letter provides that allowable Medicaid administration costs must be included in a cost
allocation plan approved by CMS. Under 45 CFR § 95.507, cost allocation plans must conform
to OMB Circular A-87 cost principles. In addition, CMS’s guidance to school-based programs
applies OMB Circular A-87 guidance, particularly with respect to use of an RMTS.
Accordingly, we believe the OMB Circular A-87 cost allocation principles apply to the costs
used to develop the State agency’s MAC payment rate.

Unallowable Overhead Costs

State Agency Comments

The State agency stated that, because contractors perform activities that would otherwise be
performed directly by the State agency, the overhead cost of operating contractor facilities may
be included in calculating the rate paid for Medicaid administration. The State agency said that
it modeled its development of the MAC rates on the approach in the CMS School-Based
Administrative Claiming Guide. The State agency also stated that, “[b]ecause regulations do not
contain a prohibition on the inclusion of ‘overhead costs of operating a provider facility’ as being
part of allowable and claiming administrative costs … overhead costs were properly included in
the claim.”

Office of Inspector General Response

CMS’s longstanding policy on administrative claiming, set forth in its 1994 State Medicaid
Director letter, prohibits including costs that are not directly related to Medicaid and,
specifically, the overhead cost of operating a provider agency. Further, the CMS School-Based
Administrative Claiming Guide was issued specifically for school settings and may not be
applicable to the activities of contracted mental health providers. 7

In developing its RMTS roster, the State agency instructed mental health providers to include all
employees who performed MAC-reimbursable activities. The indirect salaries included in our
finding were related to employees that the State agency excluded from its roster of RMTS
participants. Salaries of individuals who did not perform Medicaid activities (i.e., employees
who were not on the RMTS roster) were not directly related to Medicaid. Further, OMB
Circular A-87 requires that the sampling universe for the RMTS include all employees whose
salaries and wages are to be allocated based on sample results. Nevertheless, the State agency
included nonroster salaries in the MAC cost pool. Accordingly, overhead costs associated with
operating a provider agency and the salaries of employees who did not perform Medicaid
activities and were not included on the RMTS roster should not have been included in the MAC
cost pool.



7
  The School-Based Administrative Claiming Guide was developed to help schools and school districts prepare
appropriate claims for administrative costs under the Medicaid program and to ensure that the Medicaid program
pays for only appropriate school-based administrative activities (Claiming Guide at 1). Schools have a unique role
in assuring that services to children that are required by Medicaid are provided and that eligible children are enrolled
in Medicaid.

                                                           8
Unallowable Salaries and Wages

State Agency Comments

The State agency stated that the salaries and wages related to the 17 contracted mental health
providers were properly included in the MAC cost pool because some of the mental health
providers’ employees performed activities that related to the administration of Medicaid. Citing
the December 20, 1994, State Medicaid Director Letter, the State agency argued that operating
costs (including salaries) may be included in MAC cost pool if the State agency can identify the
fraction of effort devoted exclusively to a Medicaid-claimable activity. The State agency further
stated that its RMTS study identified this fraction of claimable activity.

Office of Inspector General Response

We reviewed the documentation for the random moments sampled from the 17 mental health
providers’ employees. These employees reported a total of 69 Medicaid-reimbursable moments
out of a total of 3,168 moments sampled. Of the 69 moments, we found only 2 activities that
were documented as Medicaid-related. Consequently, our questioned costs cannot be shown to
be reasonable costs to Medicaid. Further, using the statewide RMTS results to allocate a portion
of the salary costs of these 17 mental health providers to Medicaid, on the basis of so few
activities that can be documented as Medicaid-reimbursable, is contrary to both the OMB
Circular A-87’s “necessary and reasonable” standard and CMS’s guidance under § 1903 (a) of
the Act that costs allowable to Medicaid administration must be necessary for the proper and
efficient administration of the State plan. Therefore, the salary costs of these employees should
not be included in the cost pool apportioned to Medicaid on the basis of the statewide RMTS.

We continue to recommend that the State agency refund $5,023,626 to the Federal Government
and that the State agency work with CMS to determine what portion of the remaining $7,954,944
in Medicaid administrative costs claimed for FY 2007 was allowable under Federal
requirements.

Random Moment Timestudy Deviated From Acceptable Statistical Sampling Practices

State Agency Comments

The State agency agreed that 10 of the RMTS observations included in our sample of 100
observations were improperly coded. However, the State agency indicated that the RMTS is “a
valid methodology designed to accurately determine the portion of total provider agency time
and effort expended on allowable and reimbursable Medicaid administrative activities.” The
State agency also indicated that “there is no regulation or citation that precluded the results of the
study from being employed to calculate the State’s contract payments in a subsequent period.”
The State agency also objected to our finding that the State agency did not reduce the potential
for bias. Nevertheless, the State agency indicated that it obtained a new contractor to develop the
State agency’s MAC and that the new contractor had refined and changed its procedures related
to the RMTS to address some of our concerns.



                                                  9
Office of Inspector General Response

OMB Circular A-87 specifies certain “acceptable statistical sampling standards” for random
moment sampling that we found were not satisfied by the State when it conducted its RMTS.
For example, the State agency used RMTS results to allocate salaries of employees who were not
in the sampling universe and applied RMTS results to time periods not covered by the sample.
We also found that the State agency did not adequately reduce the potential for bias in
conducting its RMTS. After reviewing the State agency comments, we maintain our findings
and related recommendation.

Medicaid Eligibility Rates Not Documented

State Agency Comments

The State agency indicated that the statewide Medicaid eligibility rate was supported by records
that did not exactly match the rate used for 2007. According to the State agency, the underlying
database is dynamic and corrections are made on an ongoing basis. As a result, the records
queried at the time of our audit yielded a slightly different result. In addition, the State agency
concurred that it did not require mental health providers to submit supporting documentation for
their Medicaid eligibility rates. The State agency stated that it relied on mental health providers
to maintain this documentation. The State agency indicated that it has adjusted its procedures to
ensure these providers maintain documentation to support their Medicaid eligibility rate.

Office of Inspector General Response

The State agency acknowledged that records used to support the statewide Medicaid eligibility
rate were not consistent with the rate actually used and that, although mental health providers
should have maintained documentation of the rates they used, such documentation was not
available to the auditors. The State agency indicated it has subsequently changed some of its
procedures related to provider recordkeeping. Nevertheless, we continue to recommend that it
maintain supporting documentation for Medicaid eligibility rates used in computing the MAC.




                                                10
APPENDIXES
 APPENDIX A: COMMUNITY-BASED MENTAL HEALTH PROVIDERS THAT DID
            NOT PROVIDE SERVICES COVERED BY MEDICAID

HEALTH CENTER                                     NON-MEDICAID SERVICES
                                                  PROVIDED

Advance Housing, Inc.                             Housing services
Alternatives, Inc.                                Housing services
Health Services, County of Bergen                 Legal services
Bridgeway Rehabilitation Services, Inc.           Housing services
Career Opportunity Development, Inc.              Housing services
Central Jersey Legal Services                     Legal services
Dept. of Social Services, City of Asbury Park     Legal services
Collaborative Support Programs of NJ, Inc.        Legal and housing services
Community Health Law Project                      Legal services
Easter Seals, Inc.                                Housing and family services
Legal Services of Northwest Jersey                Legal services
Mental Health Association in New Jersey, Inc.     Legal, employment, family, and other
                                                   services
Mental Health Association of Monmouth County      Housing and family services
Mental Health Association of                      Employment and family services
 Southwestern New Jersey
Mental Health Association in Passaic County       Legal, family, and other services
Resources for Human Development                   Housing services
United Family and Children’s Society              Legal services


Note: Advance Housing; Easter Seals NJ, Inc.; Bridgeway Rehabilitation Services; Career
Opportunity Development; and Alternatives, Inc., had additional fully reimbursed Medicaid
and/or Division of Development Disability programs that were properly excluded from the
Medicaid Administrative Claim cost pool.
                                                                                                      Page I of I3

                         APPENDIX B: STATE AGENCY COMMENTS 





                                            ~tnb of ~2fJ;l        l'U6tv
C URl S C IIIU ST1 E                       DEPARTMENT OF HUMAN SERVICES
   Gil ....",,,,"               DI VISION OF MEDICAL A SSISTANCE AN D H EALTlI S ERVICES
                                                       PO Box 71 2
                                                'fUtm:It.I. NJ 08625-0112

                                                   June 10, 2011


             James P. Edert
             Regional Inspector General for Aud it Services
             Department of Health and Human Services
             Office of Inspector General
             Office of Audit Services Region II
             Jacob K. Javits Federal Building
             26 Federal Plaza - Room 3900
             New Yori< , NY 10278

             Report Number: A-OZ-07-01050

             Dear Mr. Edert:

             This is in respon se to your letter dated April 14, 2011 concerning the Department of
             Health and Human Services, Office of the Inspector General's (D IG) draft report entitled
             -Review of Medicaid Administrative Costs Claimed by New Jersey for State Fiscal Year
             200rYour letter provides the opportunity to comment on this draft report.

            The objective of this review was to determine whether the New Jersey Department of
            Human Services· Oivision Medical Assistance and Health Services' (OMAHS) Medicaid
            Administrative Claiming (MAC) for fisca l year 2007 complied with Federal requirements
            for claiming costs associated with administration of the State Medicaid plan.
            Specifically, the State contra cts with 56 community-based mental health centers to
            provide Medicaid-related mental health and rela ted services. Title XIX of the Social
            Security Act permits states to claim Federal reimbursement for 50 percent of the costs
            of administrative activities that are necessary for the proper and efficient administration
            of the State Medicaid plan . The review focused on the MAC claiming for these mental
            health centers.

            The draft audit report concluded that New Jersey's MAC claiming did not comply with
            Faderal requirements. Specifically, Maximus, OMAHS's contractor who developed the
            claiming methodology, included unallowable costs in the cost pool used to compute the
            MAC , resulting in a claim for $10,047,252 ($5,023,626 Federal Share) in excess
            Medicaid administrative costs. In addition, Maximus (1) performed a random moment
            time study (RMTS) that deviated from acceptable statistical sampling practices and (2)
            applied Medicaid eligibility rates that were not documented by DMAHS. The auditors
                                                                                          Page 2 of 13



Mr. James P. Edert
June 10, 2011
Page 2

were unable to quantify the effect of these errors; however, they impacted the accuracy
of the Medicaid administration costs claimed by DMAHS and the validity of the RMTS
used to allocate these costs. The draft audit report slated thai the auditors were unable
to express an opinion on the allowability of the remaining $15,909,888 ($7 ,954 ,944
Federal share) claimed on New Jersey's MAC. The draft audit report stated that these
errors occurred because DMAHS did not establish adequate policies and procedures to
ensure that calculation of its MAC complied with Federal requirements.

We appreciate the opportunity to provide this response to the draft OIG audit report.
Following are the auditors' recommenda tions and DMAHS's responses:

Recommendatlon 1:

The OIG re commends that New J ersey should refund $5,023,626 to the Fede ral
Governm ent:

The State does not concur with this recommendation . Several of the issues addressed
later in this letter derive in part from the auditors' assertion that the Federal Office of
Management and Budget (OMS) Circular A-87 applies to the detailed method the State
used to calculate the payment which contracted community providers are paid to
provide Medicaid Administrative Services. In other words , the auditors argue that the
cost allocation methods used in the provider rate development process must map to
those outlined in A-87, which establishes cost principles for State, local, or Indian Tribal
governments. The auditors contend that because the costs were claimed by a state
agency, A-87 must apply to the calculation of those costs, and thus to the rate
development.

Applicability of A -87:

The State believes that this pOSitio n is flawed because it fails to distinguish between the
costs for which the State is seeking reimbursement and the costs to which Section
8.h.(6) of Attachment B of A-87 applies. The State's administrative claim consists of a
con tractually required payment to be made by the State to provider agencies that
represents a reasonable estimation of the costs to be incurred by such agencies in
performing allowable Med icaid administrative activities. It is not a claim for the costs of
activities performed by State agency personnel. Since Section 8.h.(6) relates solely to
compensation for personal services of State agency personnel, it is totally unrelated to
the contractually required payment that the State is claiming. Thus, while we agree that
the general principles contained in Attachment A of A-87 apply to the claiming of the
payments themselves in that the costs must be reasonable we disagree that Attachment
B, Section 8 applies to the specific method used to calculate provider rales.

OMB Circular A-87 , which contains the cost principles for State, local and Indian Tribal
governments for the administration of federal awards, states that, "Governmental units




                                            2

                                                                                        Page 3 of 13




Mr. James P. Edert
June 10, 2011
Page 3


are responsible for the efficient and effective administration of federal awards." Under
these provisions, costs must be reasonable and necessary for the operation of the
governmental unit or the performance of the federal award . OMS Circular A·S7 goes on
to state -Reasonable Costs - A cost is reasonable if, in its nature and amount, it does
not exceed that which would be incurred by a prudent person under the circumstances
prevailing at the time the decision was made to incur the cost.. · and "In determining
reasonableness of a given cost, consideration shall be given to:

   A. 	Whether the cost is of a type generally recognized as ordina ry and necessary for
       the operation of the governmental unit or the performance of the Federal award .
   B. 	The restraints or requirements imposed by such factors as: sound business
       practices: arms length bargaining ; Federal, State and other laws and regulations:
       and, terms and conditions of the Federal award.
   C. Market prices for comparable goods or services.
   D. Whether the 	 individuals concerned acted with prudence in the circumstances
       considering their responsibilities to the governmental unit, its employees, the
       public at large, and the Federal Government."

The State argues that A-8? is only applicable to these provider costs in that the cost
paid by the State for the administrative functions performed by the provider agencies
must be reasonable, since they are contracted provider payments - not costs of the
state agency staff directly performing these activities. The State has established what it
contends is a reasonable method for establishing a rate paid to the providers for the
purchase of Medicaid administrative services. Providers are paid pursuant to their
contract at this rate, and once the payments are made, the State claims these
payments. The payment must be claimed consistent with the principles contained in
Attachment A of A·S?, and the rate must be ·rea sonable", however the specific method
for calcu lating the rate is not defined by A-8?

As a parallel example, in a foster care setting , the state Title IV-E agency pays foster
homes (providers) for the room, board , and supervision of the child via a monthly foster
home payment (rate). which can be claimed to the Title IV-E program. States do not
develop these rates by applying the same A-8? cost allocation principles that they would
apply to developing claims for their own state agency staff costs. Rather, a reasonable
method is used for establishing rates for various levels of care, this rate is paid to the
provider, and payment made is the agency costs, assuming the child is Title IV-E
eligible.

Unallowable Administrative Costs Inc luded In Medicaid Adminis trative Cost Pool:

      Unallowable Overhead Costs:

      The auditors' draft audit report contends that overhead costs of the mental health
      centers were improperly included in the MAC cost pool. The costs consisted of




                                           3

                                                                                        Page 4 of 13



Mr. James P. Edert
June 10, 2011
Page 4


     operating costs that were not directly rel ated to the administration of the Medicaid
     program and were operating costs of an agency whose purpose is other than
     administration of the Medicaid program. As a result, DMAHS claimed excess
     Medicaid administration costs of $3,558,136.
     The Siale disagrees with the auditors' assertion that overhead costs were
     improperly included in the claim . We believe thai such costs are properly
     includable as a component of the rates paid. The auditors cite a December 20,
     1994 eMS State Medicaid Director Letter regarding administrative case
     management. The report includes a bullet from page 5 of the December letter
     indicating that an allowable administrative cost. .. ~may nol include the overhead
     costs of operating a provider facility such as the supervision and training of
     providers:

      In developing Ihe rates paid 10 the non-proftt behavioral health service providers
     for administrative activities, the State modeled its approach on the School-Based
     Administrative Claiming Guide (School MAC Guide) issued by the Centers for
      Medicare and Medicaid Services (CMS). This is the only resource we have
     found which speaks directly to a method for ca lculating Medicaid Administration
      in a non-state agency setting. Schools playa similar role to Division of Mental
      Health Services (DMHS) community based agencies in terms of Medicaid
     administration. Schools perform Medicaid Administration on behalf of a state
     under an interagency agreement between the local education agency and the
     Stale. DMHS providers perform Medicaid Administration on behalf of the State
     of New Jersey pursuant to a contract between DMHS and the provider. In both
     cases the entity is serving individuals who have a likelihood of being Medicaid
     eligible, and in both cases the purpose of the entity is not exclusively provision of
     Medicaid services or Medicaid Administration. Both school staff and community
     mental health providers play an important role on behalf of the stale in ensuring
     and promoting that the vulnerable populations get access to needed Medicaid
     services. Given all of these similarities, and the fact this is published guidance
     from the federal cognizant agency (CMS), New Jersey concluded that it was
     reasonable to model a rate development process on this guide.

     The School MAC Guide served as the basis for New Jersey's approach to
     developing compensation rates. These rates are paid to entities to perform
     activities that are necessary for the proper and effICient adm inistration of the
     State Medicaid program that would otherwise have been performed directly by
     the Stale itself.

     As such the Stale contends that the overhead costs included in our claim are
     allowable and are the same as those claimed in school-based settings
     nationwide, as well as in community settings in other states such as Indiana. As
     an example, the Departmental Appeals Board (DAB) made a decision related to
     Medicaid Administration in Texas DAB 2187 (2008). In addressing a particular




                                          4

                                                                                           Page 5 of 13




Mr. James P. Edert
June 10, 201 1
PageS


      questioned cost under dispute, the decision described thai Texas included costs
      above and beyond those of the direct service staff salaries and benefits were as
      Medicaid administrative costs - and neither eMS nor the DAB questioned the
      appropriateness of including such costs, nor were they included via application of
      an indirect cost rate. Texas claimed costs included "direct support slaW' of time
      study participants, -materials, supplies, travel, and other operating costs ·for staff
      in the time study and their support slaff.         While the auditors question the
      inclusion of such costs in our rate development in New Jersey, these costs were
      not questioned by eMS or the DAB in Texas. Rather, e MS and the Board were
      focused on one particular item included within these · operating costs· which they
      determined to be educational in nature, not a general operating cost. Only this
      specific "educational· cost was disallowed.

     The State further disputes the auditors' assertion because the State questions
     the applicability and enforceability of the statement contained in the bullet from
     page 5 of the December 20, 1994 CMS State Medicaid Director l etter. On page
     7 of the letter, the Health Care Financing Administration (the prior name for CMS)
     indicated that "(W)e plan to issue an expanded list of policy interpretations to
     guide States' decision making regarding allowable costs for Medicaid
     administrative match for ACM [administrative case management] and other
     functions performed by state or local governments in a SMM [State Medicaid
     Manual] issuance. We also intend to incorporate these interpretations in
     regulations." By this statement, HCFA tacitly admitted that, in order for the
     policies contained in the letter to be given force, its contents must be included in
     either an official document, such as the SMM, or codified as official policy in the
     Code of Federal Regulations. To our knowledge , neither of these actions was
     ever taken. Because the regulations do nol contain a prohibition on the inclusion
     of "overhead costs of operating a provider facility" as being a part of allowable
     and claimable administrative costs, as is the case with respect to 75% FFP for
     the costs of Skilled Professional Medical Personnel, we maintain that overhead
     costs were properly included in the claim.

     Unallowable Sa laries and Wages:

     The auditors contend that unallowable salaries and wages were improperly
     included in the MAC cost pool related to employees at 17 mental health centers
     that did not provide services that directly benefited the Medicaid program . As a
     result, DMAHS claimed excess Medicaid administration costs of $1 ,465,490.

     The auditors' position is thai because for some of these providers, their primary
     mission is providing "rela ted social, family, legal, or h ousing~ services, they could
     not be penorming activities which directly benefit the Medicaid program. As
     authority for its position, they cite a bullel on page 6 of the December 20, 1994
     CMS State Medicaid Director leller indicating that allowable adm inistrative




                                           5

                                                                                          Page 6 of 13




Mr. James P. Edert
June 10, 2011
Page 6


      costs ... "may not include the operating costs of an agency whose purpose is
      other than the administration of the Medicaid program, such as the operation of a
      probation department.· The State strongly disagrees that this prohibition ;s
      applicable with respect to the 17 provider agencies referenced in the OIG draft
      report.

     Unlike a probation department that performs functions totally distinct from that of
     Medicaid type providers, DMHS providers serve clients with mental illness which
     is a vulnerable population for whom the provision of regular care is particularly
     critical. A crucial role that all providers play - even those such as the 17
     providers referenced in the OIG draft report, that they themselves are not
     providing direct Medicaid services - is assuring that these clients obtain and
     maintain regular access to Medicaid covered behavioral health and med ical care.
     Thus , similar to schools in the School-Sased MAC program, whose primary
     purpose is to provide services that are not Medicaid eligible or directly related to
     the Medicaid State Plan , staff within these 17 mental health providers do perform
     activities which directly relate to the administration of the Medicaid program and
     should therefore be allowable under the MAC claim. The Stale contends that the
     nature of the activity rather than the nature of the entity is what should govern the
     claimability.

     Furthermore 8 of the providers at issue are providing community support services
     for individuals in supportive housing settings, which is a coverable Medicaid
     service. The audit characterizes these as housing services. NJ has a SPA
     request before CMS now, being evaluated for add ition of this service to the
     Medicaid State Plan. The fact that this service was not a covered service at the
     time of audit is irrelevant as the service is in fact coverable and in fact will be
     covered in NJ imminently. Again we would argue that the focus must be upon
     the nature of the administrative activities being preformed , not the nature of the
     entity.

     As the above paragraphs indicate, the 17 cited provider agencies do perform
     necessary and allowable Medicaid administrative tasks. As a consequence, their
     activities and costs fall under another statement contained in the December 1994
     CMS Letter that was not cited in the OIG draft audit report. As a caveat to the
     prohibition cited in the QIG draft report, and placed immediately after it, the letter
     states:

         However, to the degree that a govemmental agency directs some fraction
         of its efforts exclusively to Medicaid claimable administrative services, and
         can accurately identify that fraction, it may claim an appropriata portion of
         its operating costs to support that function if all other criteria for
         administrative claiming is satisfied (e .g., direct relationship to the State
         plan, health-related, etc.)




                                          6

                                                                                        Page 7 of 13




Mr. James P. Edert
June 10, 2011
Page 7



       As permitted by the above paragraph , the Slate's methodology, through use of
       the Random Moment Time Study (RMTS), accurately identified the "fraction" of
       the efforts expended exclusively to Medicaid claimable administrative activities
       by staff at the 17 cited provider agencies and included only the appropriate
       portion of the provider agencies' operating costs related to such Medicaid
       claimable administrative activities in determining the amount of the contract
       payment to be made by the State to the agencies. Thus, con trary to the auditors'
       position, the inclusion of 17 questioned provider agencies in the sample and the
       designation of a portion of their costs as representing allowable Medicaid
       administrative expenditures are appropriate and allowable.

Recommendation 2:

The OIG Recommends that DMAHS Work with eMS to Determine What Portion of
the Remaining $7.954,944 in Medicaid Adm inistration Costs Ctaimed for FY 2007
was Allowable under Federal Requirements:

The State looks forward to working with eMS to resolve the issues cited in the OIG draft
audit report and the allowability of these claims. These issues relate to the Random
Moment Time Study (RMTS) and the application of Medicaid eligibility rates that were
not documented by DMAHS . The following outlines the State's position concerning the
auditors' findings:

Random Moment Time Study Deviated From A cceptable Statis tical Samplin g
Practices:

      Random Moment Time Study Observations Im pr operl y Coded:

      Of the 100 RMTS observations performed that were sampled by the auditors, 10
      were improperly coded. The State does not dispute this finding.

      Random Moment Time Study Did Not Cover Period to Which It Was
      Applied :

      The auditors question the propriety of the State's claim because the State
      applied the results of the RMTS to a period that was not covered by the time
      study. The RTMS was performed for the period April1, 2005 through Ma rch 31,
      2006, whereas the results were applied to the administrative costs for the period
      July 1, 2006 through June 30, 2007. In doing so, the OIG ciles OMB Circular A­
      87, Attachment B, Section 8.h.(6)(a)(ii), which stales that ~the entire time period
      involved must be covered by the sample, as justification for its action.




                                          7

                                                                                        Page 8 of 13




Mr. James P. Edert
June 10, 201 1
Page 8


      The Stale disagrees with the auditors' position and believes that it is flawed
      because it fails to distinguish between the costs for which the State is seeking
      reimbursement and the costs to which Section 8. h.(6)(a)(ii) of Attachment B of A·
      87 applies.

      The Slale's administrative claim consists of a contractually requ ired payment to
      be made by the State to provider agencies thai represents a reasonable
     estimation of the costs to be incurred by such agencies in performing allowable
     Medicaid administrative activities. As such , it does not represen t a claim for t he
     costs of activities performed by State agency personnel. Consequenlly, Section
     S.h.(6)(a)(j;) is simply not applicable in this matter because it pertains solely to
     the calculation of compensation for personal services of State agency personnel
     and therefore is totally unrelated to the contractually required payment that the
     State is claiming. Thus, the auditor is incorrect in citing this section of A-87 as a
     basis of questioning the State's claim.

      In order to determine an appropriate amount of the State's contract payment tha t
     meets Ihe "reasonableness· standard contained in Circular A-87, the State is
     required to employ a valid methodology designed to accurately determine the
     portion of tolal provider agency time and effort expended on allowable and
     reimbursable Medicaid administrative activities. The method chosen to do so is
     the RMTS. In the current dispute, a RMTS was performed during the period April
      1, 2005, through March 31 , 2006 and the resulting percentage rate of time spent
     on allowable provider agency Medicaid administrative activities was employed to
     determine the amount of the State's total contractual payments to be made to the
     provider agencies in the subsequent State Fiscal Year which, in this case, was
     the period July 1, 2006 through June 30, 2007. Since, in the State's claiming
     process, the RMTS serves solely as the mechanism to accurately determine the
     portion of total provider agency time and effort expended on allowable and
     reimbursable Medicaid administrative activities, there is no regulation or citation
     that precludes the results of the study from being employed 10 calculate the
     State's contract payments in a subsequent period .

     Random Moment Time Study Did Not Reduce the Potential for Bias:

     The auditors contend that the RMTS deviated from acceptable statistical
     sampling practices because it did not reduce the potential for bias by ensuring
     that (1 ) only eligible menial health center employees were selected for
     participation, (2) study participants did not have access to potentially biaSing
     informa tion , and (3) selected employees were not notified in advance.
     Specifica lly, the RMTS methodology contained the following deviations from
     acceptable statistical sampling practices:




                                          8

                                                                                         Page 9 of 13




Mr. James P. Edert
June 10, 2011
Page 9


         1. 	 The menial health centers included ineligible employees, e.g _ secretarie s
              and accountants.
         2. 	 Instructional materials provided to the mental health centers contained a
              potentially biasing statement thai compliance with the RMTS would help
              generate additional funds for the State and the menial health centers.
         3. 	 DMHS gave the menial health cente rs the names and contact l imes of
              employees prior to conducting the RMTS thereby potentially influencing
              the employees' assigned duties at the time they were polled .

      The Slate's position on each of the above is as follows:

         1. 	 As discussed previously, in developing the model for the MAC Program
              the State relied upon the eMS School MAC guide, the only detailed,
              operational document issued by CMS about claiming Medicaid
              administration. In discussing the type of staff that should be included in a
              MAC time study, eMS never excludes the type of administrative tilies cited
              by the auditors. In fact, the guide provides two basic principles for the
              inclusion of staff:
              • 	 Staff whose salaries are 100% funded by non statellocal funds should
                  not be included , as a revenue offset would be required, effectively
                  nullifying the addition of their costs in the cost pool. "For example. if
                  federal funding sources or third party payers other than Medicaid meet
                  100 percent of the costs of social workers, then there would be no
                  reason to include such workers in the time study and they must be
                  excluded from participation ."
              • 	 Only staff that perform Medicaid administrative activities should be
                  included.     "For example, medical staff hired by the schools as
                  contractors and reimbursed on a fixed fee basis ... and who do not
                  perform any other administrative activities, should not be included in
                  the time study."

            CMS advocates in the School MAC guide examining the responsibilities of
            individual staff to determine if their job responsibilities include Medicaid
            administrative activities, such as reviewing position descriptions, to
            determine if a particular staff member is appropriate for inclusion .

            Because of the large number of community providers participating in the
            program , the program includes agencies with widely varied organizational
            structures.     In many of the ::imaUe!" agencies, staff commonly serve
            multiple functions, and their official title may not be indicative of the types
            of activities the person actually performs. As a result of this variety,
            DMHS could not have created a list of ~a cceptable" titles for inclusion in
            the study. Instead, the State determined that the community providers
            themselves would be in the best position to determine which staff would




                                           9

                                                                                     Page 10 of 13




Mr. James P. Edert
June 10, 2011
Page 10


            be appropriate for inclusion in the study. Providers in the MAC program
            were asked to establish a program liaison thai was responsible for
            preparing and submitting an agency foster of staff for participation in the
            lime study. Siaff were to be included on the rosier based a number of
            rules, including the following principles:

            Staff are expected to perform Medicaid administrative activities
            Staff are paid staff
            Staff are not 100% federa lly fu nded
            Staff are not funded under one of several New Jersey programs which
            have fully loaded rates (including Medicaid administration)
            Staff are not classified as 100% indirect
            Agencies were provided an opportunity on a quarterly basis to update their
            staff rosters. The instructions for these updates, repeated the guidelines
            for what types of staff should be included in the study.

            While some program liaisons may have made errors in the application of
            these guidelines, the general approach that the Slate implemented is
            consistent with the School MAC guide. It is not the title of the individual,
            but whether or not they are expected to perform MAC activities that is the
            determining factor of whether or not the person is to be included.

            Moreover, our position is further supported by Texas DAB 2187 (2008) , in
            which the DAB found in favor of the stale related to the inclusion of non­
            direct service staff in the time study. OIG argued that "school principals,
            their secretaries, school superintendents, and certain other categories of
            school personnel on the ground that these individuals did not perform
            activities related to Medicaid ."     Texas demonstrated via time study
            results that these types of staff did perform Medicaid administrative
            activities, · CMS disavowed the original basis for the disallowance", and
            the DAB reversed the disallowance. Additionally, this decision includes
            discussion of contractor costs, including some contractors that did not
            provide direct services. Again , the conclusion was that even though these
            contractors did not provide direct services, they still could be Included in
            the time study.

        2. 	While it is true that time study information forms and liaison instructions
            indicated that participation in the program could generate additional funds
            for both the state and the community providers, the State disagrees that
            these statements are biasing. These materials were created to inform
            potential participants of the reasons why a time study was being
            implemented and imposed upon them, a common sense necessity in
            order to obtain worker cooperation, that they might be contacted , and to
            emphasize the importance of responding to time study phone pollers.




                                          10 

                                                                                       Pagellof13




Mr. James P. Edert
June 10, 2011
Page 11


            Given the busy schedules of the community agency staff, this information
            was provided to encourage their cooperation , thereby allowing for a more
            accurate time study result. Contrary to the implication in the auditors' draft
            report's conclusion, staff were not informed or · coached" as to which
            response would result in additional funding - but instead , were only
            requested to provide information on the activity they were performing in
            sufficient detail in order to allow the phone poller to assign a code to their
            activity,

            Moreover, it is not unusual to inform staff that a function they are
            performing (responding to the time study) other than the actual direct
            service, is important for agency funding. As an example, clinicians may
            be asked 10 complete special forms, documentation , or coding following
            an office visit 10 allow for billing to Medicaid or third party insurance.

         3. 	 The School MAC guide says "All staff in the sample universe should be
              adequately trained before the sampling begins. Training should cover all
              aspects of the sampling process. The State chose to accomplish Ihis via
                                                 H



              distribution of a lime study training information form to be given to time
              study participants. In an effort to ensure that all staff that were to
              participate in the time study each quarter had been furnished with this
              information form, each community agency's liaison was provided with a
              ·control list" of sampled employees for the quarter. The purpose of this
              list was not as the auditor's draft report implies, to notify the sampled
              individuals in advance of the day or time of their moment, but instead to
              ensure that all individuals had received training materials consistent with
              the School MAC guide. At no time did the state request the provider
              liaisons to advise employees when they would be contacted. Given the
              large number of participants statewide, this approach was used to assure
              that when an individual was sampled, they would be conscious of the
              program and be in a position to participate according to the established
              guidelines.

            As the program moved forward , the state moved to providing a control list
            which included individual names, but not dates or times to avoid any
            possibility of advance notice; finally the use of a control list was
            abandoned and liaisons were asked to provide the training materials to
            every rostered staff member, since all had a chance of being sampled ,
            rather than jU3t to those staff who were selected for the study.

            The auditors contend that any party in a community agency knowing who
            might participate in the study introduces unacceptable bias. The State
            disagrees with this position. Many states utilize paper time studies or
            · observer" lime studies for aliocation of costs in one or more public




                                          11 

                                                                                        Page 12 of 13




Mr. James P. Edert
June 10, 2011
Page 12


              assistance programs. In both of these cases, someone within the agency
              must know ahead of time who will be sampled when, to ensure that the
              sampled individual is either provided the paper time study form , or thai the
              observer visi ts the sampled individual to observe their activities. Although
              the procedures for the program were changed over time, we still contend
              thai the notification to an agency liaison of the sampled individuals and the
              sampled moments was acceptable.

Medicaid Eligibility Rates {MER} Not Documented:

       The auditors contend thai the Stale did nol maintain documents to support the
       MER used to determine the percentage of employee efforts applicable to the
       Medicaid program and further that the providers did not maintain such
       documentation.

       The State required providers to develop and submit their MER. For providers
       that failed to do so the State developed a statewide MER rate that was used in
       the absence of a provider specific MER rate. The State concurs that we did not
       specifically require providers to submit the underlying documentation for the
       development of their MER and instead relied on providers to maintain such
       documentation.

       For 2007 the statewide MER was supported by records maintained by the State
       that did not exactly match the MER used for 2007. The underlying database is
       dynamic and corrections are made on an ongoing basis from time-la-time after
       the period at issue. As a result, querying the records currently in the database
       for the year al issue yielded a result slightly different than that from the original
       query. The originally query used for the claim yielded a statewide MER of 31 .5%
       and the current query of the applicable period yielded 30.9% , not a difference
       that would have a significant impact on the DMAHS claim.

Recommendation 3:

The O IG Recommends that DMAHS Establis h Policies and Procedu res to Ens ure
that Future RMTS results Used to Allocate Costs to Medicaid Follow Acceptable
Sampling Practices:

W hile the Slate believes that the RMTS used during this audit period to allocate costs to
Medicaid were acceptable, the State has replaced Maximus and retained Public
Consulting Group (PCG) to develop MAC claims for subsequent years. PCG also uses
a RMTS to identify the Medicaid administration activities of staff in the contracted
mental heaHh centers. Public Consulting Group has refined and changed the RMTS
procedures to address some of the concerns expressed by the auditors .




                                            12 

                                                                                   Page 13 of 13




Mr. James P. Edert
June 10. 2011
Page 13


Recommendation 4:

The OIG Recommends that DMAHS Maintain Supporting Documentation for
Medicaid Eligibility Rates Used i n Computing the MAC:

The State has adjusted its procedures to assure prospectively that providers submit an
attestation with their MER data regarding maintenance of underlying documentation .
This documentation will be available for a review by an auditor.

If you have any questions or require additional information, please con tact me or
Richard Hurd at 609-588-2550. I would like to thank the OIG audit learn for their
professionalism throughout the audit and our review of their findings and
recommendations.

                                       Sincerely,



                                       Valerie Harr
                                       Director

c: 	   Jennifer Velez
       Richard Hurd




                                         13 

